Joel B. Rothman

Board Certified in Intellectual Property Law
8 a W Direct: 561.404.4335

joel.rothman@sriplaw.com

February 11, 2020

VIA EMAIL AND CM/ECF
The Honorable Scott S. Harris
Clerk of the Court

United States Supreme Court
One First Street, N.E.
Washington, D.C. 20543

Re: Geophysical Service, Inc. v. TGS-Nopec Geophysical Company
Case No. 19-873

Dear Mr. Harris,

Iam writing on behalf of petitioner Geophysical Service, Inc. in the above-referenced
case to grant blanket consent to any person or entity for the filing of an amicus curiae
brief in support of either or neither party at the merits stage, so long as any such filing
complies with this Court's rules.

If you have any questions, please call me at 561-404-4335.

Respectfully submitted,

 

Joel B. Rothman

\
| 1801 Century Park East 21301 Powerline Road 125 Maiden Lane Main: 561.404.4350
' Suite 1100 Suite 100 Suite 5C Fax: 561.404.4353

Los Angeles, CA 90067 Boca Raton, FL 33433 New York, NY 10038 www.sriplaw.com
The Honorable Scott S. Harris
February 11, 2020
Page 2

ce: Jonathan S. Franklin
NORTON ROSE FULBRIGHT US LLP
799 Ninth Street, N.W. Suite 1000
Washington, DC 20001

jonathan. franklin@nortonrosefulbrightcom

Ms. Melanie Rother

Mr. Peter Tipps

NORTON ROSE FULBRIGHT US LLP
melanie.rother@nortonrosefulbright.com
peter.tipps@nortonrosefulbright.com

Don Cruse

LAW OFFICE OF DON CRUSE
1108 Lavaca St.

Suite 110-436

Austin, Texas 78701
don.cruse@texasappellate.com

1801 Century Park East | 21301 Powerline Road 125 Maiden Lane Main: 561.404.4350
Suite 1100 Suite 100 ! Suite 5C Fax: 561.404.4353
Los Angeles, CA 90067 Boca Raton, FL 33433 New York, NY 10038 www.sriplaw.com
